IN THE SUPREME COURT OF THE UNITED STATES

SAFEHOUSE
Petitioner
vs.

No:

21-0276

DEPARTMENT OF JUSTICE, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
September 07, 2021
cc:

See Attached List

PETER GOLDBERGER
50 RITTENHOUSE PLACE
ARDMORE, PA 19003
MATTHEW A. HAMERMESH
HANGLEY ARONCHICK SEGAL
PUDLIN & SCHILLER
ONE LOGAN SQUARE
27TH FLOOR
PHILADELPHIA, PA 19103
NORAH RAST
OFFICE OF THE SOLICITOR
GENERAL
OFFICE OF THE ATTORNEY
GENERAL FOR THE DISTRICT OF
COLUMBIA
400 6TH STREET, NW
SUITE 8100
WASHINGTON, DC 20001
ILANA HOPE EISENSTEIN
DLA PIPER LLP (US)
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 5000
PHILADELPHIA, PA 19109
RONDA B. GOLDFEIN
AIDS LAW PROJECT OF
PENNSYLVANIA
1211 CHESTNUT ST.
STE. 600
PHILADELPHIA, PA 19107
SETH F. KREIMER
3501 SANSOM ST.
PHILADELPHIA, PA 19104
JENNIFER MACNAUGHTON
SENIOR ATTORNEY, APPEALS
1515 ARCH ST.
#15
14TH TO 17TH FLOORS
PHILADELPHIA, PA 19102

